App. No. ___
-------------------In The
Supreme Court of the United States
-------------------ALBERT T. ROBLES,
Applicant-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.
-------------------APPLICATION FOR EXTENSION OF TIME TO FILE
A PETITION FOR A WRIT OF CERTIORARI
-------------------To the Honorable Justice Elena Kagan, as Circuit Justice for the United States
Court of Appeals for the Ninth Circuit:
Applicant (Petitioner-Appellant below) Albert T. Robles respectfully requests
that the time to file a petition for a writ of certiorari be extended by sixty (60) days,
to and including January 18, 2020. The court of appeals issued its Order denying a
certificate of appealability on August 22, 2019.

See App. A, infra.

Absent an

extension of time, the petition would be due on November 20, 2019. Petitioner is
filing this Application at least ten (10) days before that date. See S. Ct. R. 13.5.
This case involves a conviction under 18 U.S.C. § 666, the federal bribery
statute applicable to state and local officials. That conviction was based on the
receipt of campaign contributions and the jury was not required to find any quid pro
quo or official action in exchange for such contributions. There is a substantial

1

circuit split on whether the same standards apply to § 666, and the application of a
criminal bribery statute to state and local campaign contributions without an
express quid pro quo raises substantial constitutional questions regarding the
freedom of speech and association and federalism.
Background
1. Applicant Robles was convicted of honest services fraud, money
laundering, and bribery. The Ninth Circuit on direct appeal reversed all but the five
bribery convictions under 18 U.S.C. §666. United States v. Garrido, 713 F.3d 985
(9th Cir. 2013), cert. denied, 571 U.S. 1222 (2014). The alleged bribes were
campaign contributions Robles received from Michael Klistoff while Robles was the
Treasurer of the City of South Gate. More than a year after Klistoff gave the first
contribution, and months after he gave the last, Robles helped Klistoff with his
efforts to have his company, Klistoff & Sons, awarded South Gate’s waste-hauling
business. There was no evidence that when Klistoff made the contributions Robles
agreed to do anything for Klistoff in return – that is, there was no evidence of a quid
pro quo agreement. Indeed, the evidence was directly to the contrary because,
among other things, Klistoff, the government’s cooperating witness, testified that
there was no quid pro quo agreement.
In a § 2255 motion, Robles argued that (1) his bribery convictions were
invalid because there was no evidence of a quid pro quo agreement, and (2) to the
extent this Court implicitly held otherwise in Garrido that holding was undermined
by McCutcheon v. FEC, 134 S. Ct. 1434 (2014), and McDonnell v. United States, 136
S. Ct. 2355 (2016). The district court denied relief, stating that this issue had been

2

decided in Garrido and could not be re-litigated in a §2255 motion and denied a
certificate of appealability. App. B & C. On appeal, the Ninth Circuit likewise
denied a certificate of appealability. App. A.
Reasons for Granting and Extension of Time
to File a Petition for a Writ of Certiorari
The time to file a Petition should be extended for sixty (60) days for several
reasons:
1.

The forthcoming petition has a reasonable likelihood of being granted

based on the substantial circuit split over whether a quid pro quo is required to
convict under § 666. The Sixth, Seventh, Ninth, and Eleventh Circuits have held
that a federal-funds bribery conviction under § 666 does not require proof of an
official act or a quid pro quo. See United States v. Abbey, 560 F.3d 513, 520 (6th
2009), cert. denied, 558 U.S. 1051 (2009); United States v. Gee, 432 F.3d 713, 714715 (7th Cir. 2005), cert. denied, 547 U.S. 1113 (2006); United States v. Garrido, 713
F.3d 985, 997 (9th Cir. 2013), cert. denied, 571 U.S. 1222 (2014); United States v.
McNair, 605 F.3d 1152, 1188 (11th Cir. 2010), cert. denied, 562 U.S. 1270 (2011).
The Second, Third, Fourth, and Eighth Circuits, by contrast, do require a showing
of a quid pro quo agreement to convict under § 666. See United States v. Ford, 435
F.3d 204, 213 (2d Cir. 2006); United States v. Bryant, 655 F.3d 232, 246 (3d Cir.
2011); United States v. Jennings, 160 F.3d 1006, 1014 (4th Cir. 1998); United States
v. Griffin, 154 F.3d 762, 763 (8th Cir. 1998); see also Jared W. Olen, The Devil’s in
the Intent: Does 18 U.S.C. §666 Require Proof of Quid-Pro-Quo Intent?, 42 SW. U. L.
REV. 229, 234-40 (2012).

3

Given such a split the standards for a certificate of appealability – that the
issue be fairly “debatable,” Slack v. McDaniel, 529 U.S. 473, 484 (2000) – were met
and that there is a significant possibility this court will agree with those circuits
requiring a showing of a quid pro quo under § 666, particularly where the alleged
“bribe” was a campaign contribution protected by the First and Fourteenth
Amendments.
The decision below also is inconsistent with this Court’s decision in
McDonnell v. United States, which held that in a federal bribery prosecution
brought under 18 U.S.C. § 201 the Government must prove that the bribe was
offered or made in exchange for an “official act” involving “a formal exercise of
governmental power that is similar in nature to a lawsuit before a court, a
determination before an agency, or a hearing before a committee.” 136 S. Ct. at
2371-72 (emphasis added). The rule announced in McDonnell turned not just on the
statutory text of the federal bribery statute at issue in that case, 18 U.S.C. § 201,
but also on “significant” constitutional and federalism concerns. Id. at 2372, 2372.
Section 666(a)(1)(B) structurally and linguistically mirrors the bribery provision of
Section 201 and raises the same constitutional and federalism concerns. There is a
substantial likelihood that this Court would reach the same conclusion here that it
reached in McDonnell and require a quid pro quo for any conviction under § 666,
particularly where the “quid” is a perfectly legal campaign contribution.
2. Absent the improper denial of a quid pro quo instruction, applicant very
likely would have been acquitted.

Indeed, the government’s own witness was

emphatic in claiming that there was no quid pro quo.

4

3. An extension of time is also warranted to allow newly involved Supreme
Court counsel time to evaluate the case and prepare a petition to this court.
Applicant’s prior counsel has effectively abandoned his client a mere 13 days before
a petition for certiorari was due.

Undersigned Supreme Court counsel was

contacted for the first time yesterday when it appeared that prior appellate counsel
was not adequately prepared to file a petition for certiorari.

Upon applicant’s

attempt to coordinate between undersigned counsel and prior counsel, prior counsel
stated he was no longer interested in preparing the petition. There is no indication
that he even had a viable draft of a petition. Undersigned counsel agreed to step in
subject to the availability of an extension, which he requests by this application.
Counsel has had less than 24 hours to review this case, expects that prior
counsel will provide no meaningful assistance in the transition, and accordingly
needs an extension to allow him properly to evaluate the case and prepare a
suitable petition to this Court. Given the upcoming holidays and counsel’s preexisting case obligations, an extension of 60 days is requested.

Counsel has

multiple case obligations in multiple courts in the intervening time, including a
cert. reply brief in this Court in Guedes v. ATF, No. 19-296, that will be due
approximately December 18, 2019. Counsel will then be travelling for the holidays.
The longer extension thus is reasonable to give counsel adequate time to familiarize
himself with the case and prepare the petition.
4. No prejudice would arise from the extension as any petition would be
considered after the holidays in any event. Indeed, if the petition were filed prior to

5

the holidays it would be the government confronted with likely scheduling
difficulties and seeking an extension.
Conclusion
For the foregoing reasons, the time to file a Petition for a Writ of Certiorari in
this matter should be extended for sixty days to and including January 18, 2020.

Respectfully submitted,
s/Erik S. Jaffe
Erik S. Jaffe
SCHAERR | JAFFE LLP
1717 K Street NW,
Washington, DC 20006
(202) 787-1060
ejaffe@schaerr-jaffe.com
Counsel for Applicant
November 8, 2019

6

Suite

900

Exhibit A

Case: 18-56250, 08/22/2019, ID: 11406865, DktEntry: 3, Page 1 of 1

FILED

UNITED STATES COURT OF APPEALS

AUG 22 2019

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK

UNITED STATES OF AMERICA,
Plaintiff-Appellee,

v.

ALBERT T. ROBLES, AKA Albert Tzareih
Robles,
Defendant-Appellant.
Before:

No.

18-56250

U.S. COURT OF APPEALS

D.C. Nos.

2:15-cv-00207-SVW
2:04-cr-01594-SVW-1
Central District of California,
Los Angeles
ORDER

SCHROEDER and PAEZ, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 2) is denied
because appellant has not shown that “jurists of reason would find it debatable
whether the [section 2255 motion] states a valid claim of the denial of a
constitutional right and that jurists of reason would find it debatable whether the
district court was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S.
473, 484 (2000); see also 28 U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565 U.S.
134, 140-41 (2012); Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

Exhibit B

Case 2:15-cv-00207-SVW Document 29 Filed 07/25/18 Page 1 of 3 Page ID #:297

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

2:15-cv-00207-SVW/ 2:04-cr-01594(B) SVW

Title

Albert T. Robles v. United States

Present: The Honorable

Date

July 25, 2018

STEPHEN V. WILSON, U.S. DISTRICT JUDGE

Paul M. Cruz

N/A

Deputy Clerk

Court Reporter / Recorder

Attorneys Present for Plaintiffs:

Attorneys Present for Defendants:

N/A

N/A

Proceedings:

IN CHAMBERS ORDER LIFTING STAY AND DENYING § 2255
MOTION [24]

Having read and considered the papers, the Court GRANTS Petitioner’s request to lift the stay
on his § 2255 proceedings and DENIES Petitioner’s § 2255 petition for the reasons set forth in the
government’s opposition to Petitioner’s motion.
On January 12, 2015, federal inmate Albert T. Robles (“Petitioner”) filed a petition to vacate, set
aside, or correct a sentence pursuant to 28 U.S.C. § 2255. Dkt. 1. Prior to the Court ruling on Petitioner’s
§ 2255 petition, Petitioner asked that the court stay the petition pending resolution of his Ninth Circuit
appeal of the denial of his motion for new trial and his resentencing. Dkt. 19. This Court granted
Petitioner’s request for a stay on May 15, 2015. Dkt. 20. On March 8, 2018, Petitioner filed a request to
lift the stay on his § 2255 proceedings and requested the Court to accept a supplemental filing to his §
2255 petition. Dkt. 24. In this motion, Petitioner also requests that the Court hold an evidentiary hearing.
Dkt. 24. In response, the government agrees that the stay on Petitioner’s § 2255 proceedings should be
lifted. Dkt. 26. The government also argues that Petitioner’s request for an evidentiary hearing, as well
as his § 2255 petition, should be denied. Dkt. 26.
The Court GRANTS Petitioner’s request to lift the stay on his § 2255 petition. The Court also
DENIES Petitioner’s § 2255 petition because, as the government notes, a § 2255 petition cannot be
based on a claim that has already been disposed of by direct appeal of the underlying criminal
judgment.1 Petitioner contends that a conviction for bribery under 18 U.S.C. § 666 requires proof of a
1

When a defendant has raised a claim and has been given a full and fair opportunity to litigate it on direct appeal, that claim

:
Initials of Preparer

CIVIL MINUTES - GENERAL

PMC
Page 1 of 3

Case 2:15-cv-00207-SVW Document 29 Filed 07/25/18 Page 2 of 3 Page ID #:298

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

2:15-cv-00207-SVW/ 2:04-cr-01594(B) SVW

Title

Albert T. Robles v. United States

Date

July 25, 2018

quid pro quo in cases involving campaign contributions. In its opposition, the government argues that
United States v. Garrido, 713 F.3d 985 (9th Cir. 2013) forecloses Petitioner’s argument because Garrido
established the law of Petitioner’s case by affirming Petitioner’s § 666 convictions. Dkt. 26. Garrido
held that “‘[t]he requirement of a ‘corrupt’ intent in § 666 . . . narrow[s] the conduct that violates § 666
but does not impose a specific quid pro quo requirement.” Garrido, 713 F.3d at 1002 (citing United
States v. McNair, 605 F.3d 1152, 1188 (11th Cir. 2010) (concluding that § 666 does not require a quid
pro quo)). In so holding, the Garrido court rejected Petitioner’s argument that § 666 convictions require
proof of a quid pro quo in cases involving campaign contributions. Id. Petitioner “has been given a full
and fair opportunity to litigate [the quid pro quo argument] on direct appeal.” United States v. Hayes,
231 F.3d 1132, 1139 (9th Cir. 2000). Having raised this argument “unsuccessfully on direct appeal,
[Petitioner] cannot now seek to relitigate it as part of a petition under § 2255.” Olney v. United States,
433 F.2d 161, 162 (9th Cir. 1970).2
With respect to Petitioner’s request for an evidentiary hearing, the government notes that
Petitioner has failed to submit a declaration from any witness indicating that the witness is willing to
testify, or that the witness would testify as Petitioner asserts. Dkt. 9. The government also notes that
Petitioner’s supplemental filings reiterate the same arguments as those made in his § 2255 petition and
none of the new authorities Petitioner cites in his supplemental filing are intervening higher authorities
that have come after the Ninth Circuit’s most recent review of Petitioner’s § 666 convictions. Dkt. 26, at
5. Where a defendant has asserted “no more than conclusory allegations, unsupported by facts and
refuted by the record, an evidentiary hearing is not required.” United States v. Quan, 789 F.2d 711, 715
(9th Cir. 1986). Accordingly, the Court DENIES Petitioner’s request for an evidentiary hearing.
may not be used for a subsequent § 2255 petition.” United States v. Hayes, 231 F.3d 1132, 1139 (9th Cir. 2000); see also
United States v. Berry, 624 F.3d 1031, 1038 (9th Cir. 2010) (“[T]he [Supreme] Court has cautioned that § 2255 may not be
used as a chance at a second appeal.”); Olney v. United States, 433 F.2d 161, 162 (9th Cir. 1970) (“[h]aving raised this point
unsuccessfully on direct appeal, appellant cannot now seek to relitigate it as part of a petition under § 2255.”)
2
If the Court were to reach the merits of Petitioner’s underlying ineffective assistance of counsel claims, those claims would
also be denied for two reasons. First, counsel’s failure to argue a quid pro quo requirement and failure to request a quid pro
quo jury instruction did not “fall outside the wide range of professionally competent services.” Strickland, 466 U.S. at 68790. Second, counsel’s failure to raise a quid pro quo argument and failure to request a quid pro quo jury instruction did not
prejudice Petitioner. Id. An ineffective assistance of counsel claim premised on counsel’s failure to raise an argument must
show that the argument was likely to be successful. See Juan H. v. Allen, 408 F.3d 1262, 1273 (9th Cir. 2005) (“trial counsel
cannot have been ineffective for failing to raise a meritless objection”). A defendant has no constitutional right to compel
counsel to raise particular claims if counsel, as a matter of professional judgment, decides not to present those issues. See
Jones v. Barnes, 463 U.S. 745, 751 (1983) (declining to promulgate “a per se rule that the client, not the professional
advocate, must be allowed to decide what issues are to be pressed”).

:
Initials of Preparer

CIVIL MINUTES - GENERAL

PMC
Page 2 of 3

Case 2:15-cv-00207-SVW Document 29 Filed 07/25/18 Page 3 of 3 Page ID #:299

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

2:15-cv-00207-SVW/ 2:04-cr-01594(B) SVW

Title

Albert T. Robles v. United States

Date

July 25, 2018

IT IS SO ORDERED.

:
Initials of Preparer

CIVIL MINUTES - GENERAL

PMC
Page 3 of 3

Exhibit C

Case 2:15-cv-00207-SVW Document 32 Filed 09/13/18 Page 1 of 1 Page ID #:324
FfLED
CLERK U.S. DISTRICT COURT

SEP 13 2018
CENTFZAL DIST
BY

T

CALIFORNIA
DEPUTY

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CASE NUMBER

Albert T Robles,

2:15-cv-00207-SVW
PETITIONER
V.

United States of America,

ORDER RE: CERTIFICATE OF
APPEALABILITY
RESPONDENT.

9/12/18
,Petitioner filed a Notice of Appeal and a request for a Certificate
On
of Appealability pursuant to 28 U.S.C. § 2253. The Court has reviewed the matter.
IT IS HEREBY ORDERED:
❑ The Certificate of Appealability is GRANTED. The specific issues) satisfy §2253(c)(2) as follows:

The Certificate of Appealability is DENIED for the following reason(s):
There has been no substantial showing ofthe denial of a constitutional right.
❑ The appeal seeks to test the validity of a warrant to remove to another district or place for
commitment or trial.
❑ The appeal seeks to test the validity of the detention pending removal proceedings.
'
"
J
Date

CV-79 (07/97)

Unit

tates District Judge

ORDER RE: CERTIFICATE OF APPEALABILITY

CERTIFICATE OF SERVICE
I hereby certify that, on this 8th day of November, 2019, I caused one copy of the foregoing
Application For Extension of Time to File a Petition for a Writ of Certiorari, in Robles v. United
States, No. ____, to be served by e-mail and by First Class Mail, postage pre-paid, on:
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

Lawrence Middleton
Assistant U.S. Attorney
DOJ - Office of the U.S. Attorney
312 North Spring Street
Los Angeles, CA 90012
lawrence.middleton@usdoj.gov

I further certify that all parties required to be served have been served.

s/ Erik S. Jaffe______________
Erik S. Jaffe

